        ACCOUNTING ENTRIES MADE IN COMPILING THE FY 2000
     FINANCIAL STATEMENTS FOR THE WORKING CAPITAL FUNDS
       OF THE AIR FORCE AND OTHER DEFENSE ORGANIZATIONS


Report No. D-2001-163                            July 26, 2001




             Office of the Inspector General
                 Department of Defense
      Additional Copies

      To obtain additional copies of this audit report, visit the Inspector General, DoD,
      Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
      Distribution Unit of the Audit Followup and Technical Support Directorate at
      (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

      Suggestions for Future Audits

      To suggest ideas for or to request future audits, contact the Audit Followup and
      Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
      fax (703) 604-8932. Ideas and requests can also be mailed to:

                        OAIG-AUD (ATTN: AFTS Audit Suggestions)
                         Inspector General, Department of Defense
                            400 Army Navy Drive (Room 801)
                                Arlington, VA 22202-4704

      Defense Hotline

      To report fraud, waste, or abuse, contact the Defense Hotline by calling
      (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
      by writing the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
      The identity of each writer and caller is fully protected.




Acronyms
CFO                Chief Financial Officer
DFAS               Defense Finance and Accounting Service
DSS                Defense Security Service
DDRS               Defense Departmental Reporting System
GAAP               Generally Accepted Accounting Principles
JLSC               Joint Logistics Systems Center
ODO                Other Defense Organizations
SF                 Standard Form
USTRANSCOM         United States Transportation Command
WCF                Working Capital Fund
                       Office of the Inspector General, DoD
Report No. D-2001-163                                                 July 26, 2001
 (Project No. D2001FD-0014.002)

            Accounting Entries Made in Compiling the FY 2000
              Financial Statements for the Working Capital
                    Funds of the Air Force and Other
                          Defense Organizations

                                  Executive Summary

Introduction. The Chief Financial Officers Act of 1990, as amended by the Federal
Financial Management Act of 1994, requires DoD to submit to the Office of
Management and Budget annual audited financial statements. This audit is one in a
series of audits of department-level accounting entries made by the Defense Finance
and Accounting Service in preparing the FY 2000 financial statements for DoD
reporting entities. This audit supported the audits of the FY 2000 financial statements
for the DoD and the Department of the Air Force Working Capital Fund. The
Inspector General, DoD, and the Air Force Audit Agency disclaimed an opinion on
those financial statements. The Defense Finance and Accounting Service Denver made
$127.7 billion in accounting entries in compiling the FY 2000 financial statements for
the working capital funds of the Air Force and three other Defense organizations
included in the DoD Agency-Wide financial statements.

Objective. The original objective of the audit was to determine whether the Defense
Finance and Accounting Service Denver consistently and accurately compiled financial
data from field activities and other sources in preparing the FY 2000 financial
statements for the working capital funds of the Air Force, the U.S. Transportation
Command, the Defense Security Service, and the Joint Logistics Systems Center.
However, the objective was revised to determine whether the accounting entries made
by the Defense Finance and Accounting Service Denver in compiling those FY 2000
financial statements were adequately supported and complied with generally accepted
accounting principles. We also reviewed applicable internal controls and compliance
with laws and regulations, including the management control program.

Results. In compiling the Air Force Working Capital Fund financial statements, the
Defense Finance and Accounting Service Denver made $105.0 billion in accounting
entries. Of that amount, entries for $32.0 billion were unsupported and $4.3 billion
were improper. Similarly, in compiling the financial statements for the working capital
funds of the U.S. Transportation Command, Defense Security Service, and the Joint
Logistics Systems Center, the Defense Finance and Accounting Service Denver made
$22.7 billion in accounting entries. Of that amount, entries for $10.0 billion were
unsupported. The Defense Finance and Accounting Service Denver made progress in
reducing the volume of and improving the support for accounting entries. However,
the problem with unsupported and improper accounting entries remains and affects the
accuracy and reliability of the financial statements prepared for the working capital
funds of the Air Force and other Defense organizations. For details of the audit results,
see the Finding section of the report. See Appendix A for details on the review of the
management control program, as it relates to controls over accounting entries, and
Appendix B for a comparison to prior audit results.

Summary of Recommendations. We recommend that the Under Secretary of Defense
(Comptroller) revise the DoD Financial Management Regulation related to unresolved
abnormal balances, footnote disclosures for elimination entries, and returns to vendor
pending credit; and also revise an internal Air Force Working Capital Fund inventory
model to correctly report holding gains and losses related to excess, obsolete, and
beyond repair inventory. We recommend that the Director, Defense Finance and
Accounting Service Denver, record collections of accounts receivable in the correct
accounting period, follow the DoD Financial Management Regulation and related
internal guidance to adequately support all accounting entries, and provide additional
training to users of one key automated system.

Management Comments. The Under Secretary of Defense (Comptroller) did not
comment on a draft of this report issued on April 4, 2001. The Defense Finance and
Accounting Service concurred in all but one recommendation. Management concurred
in principle with providing required support for its accounting entries, stating the
unsupported and improper entries were made to improve the accuracy of the financial
statements. A new system modification will remedy confusion over unsupported
entries. See the Finding section of the report for a discussion of the management
comments and the Management Comments section for the complete text.

Audit Response. Comments by the Defense Finance and Accounting Service are fully
responsive, except for incomplete comments concurring in principle in
Recommendation 2b. We therefore revised the recommendation for increased clarity.
Management’s comments on that recommendation did not address the corrective actions
taken or planned with respect to inadequately documented future entries. In addition,
the system modification will have no impact on working capital funds because it will
only be used for general funds. We request comments from the Under Secretary of
Defense (Comptroller) and additional comments from Defense Finance and Accounting
Service on one recommendation by August 27, 2001.




                                           ii
Table of Contents

Executive Summary                                        i

Introduction
     Background                                          1
     Objective                                           2

Finding
     Accounting Entries                                  4

Appendixes
     A. Audit Process
          Scope                                         16
          Methodology                                   17
          Management Control Program Review             17
          Prior Coverage                                18
     B. Comparison of FYs 1999 and 2000 Audit Results   19
     C. Report Distribution                             23

Management Comments
     Defense Finance and Accounting Service             25
Background
           Audit Requirement. Public Law 101-576, the “Chief Financial Officers (CFO)
           Act of 1990,” November 15, 1990, as amended by Public Law 103-356, the
           “Federal Financial Management Act of 1994,” October 13, 1994, requires DoD
           to submit to the Office of Management and Budget annual financial statements
           that have been audited by the Inspector General. This audit is one in a series of
           audits of department-level accounting entries made by the Defense Finance and
           Accounting Service (DFAS) in preparing the FY 2000 financial statements for
           DoD reporting entities. The audit supported the audits of the FY 2000 financial
           statements for the DoD and the Department of the Air Force Working Capital
           Fund (WCF). The Inspector General, DoD, and the Air Force Audit Agency
           disclaimed an opinion on those financial statements.

           Department-Level Accounting. DFAS Denver performed the department-level
           accounting and compiled the FY 2000 financial statements for the following
           WCFs:

                    •    Department of the Air Force WCF with total assets of $20.4 billion
                         and a total net position of $16.5 billion,

                    •    U.S. Transportation Command (USTRANSCOM) WCF with total
                         assets of $2.6 billion and a total net position of $1.2 billion,

                    •    Defense Security Service (DSS) WCF with total assets of
                         $39.3 million and a total net position of negative $39.5 million, and

                    •    Joint Logistics Systems Center (JLSC)1 WCF with total assets of
                         $106.6 million and a total net position of $65.0 million.

           The latter three organizations are included in the FY 2000 DoD Agency-Wide
           Financial Statements as part of the Other Defense Organizations (ODO) WCF.
           The Department of the Treasury considers the USTRANSCOM to be part of the
           Air Force WCF. The financial statements are compiled by DFAS Denver from
           accounting data obtained from several departmental automated information
           systems.2 This audit focused on the accounting entries made by DFAS Denver
           in the Air Force Stock Fund Accounting System, the Chief Financial Officers
           Reporting System, and the Defense Departmental Reporting System (DDRS).

                 Air Force Stock Fund Accounting System. The Air Force Stock Fund
           Accounting System module is part of the Departmental On-line Accounting and



1
    The accounting function for JLSC, whose operations were closed on September 30, 1998, is limited to
    the closing of residual accounting balances.
2
    Unless otherwise noted, references to account numbers in this report are based on the U.S. Standard
    General Ledger.

                                                      1
            Reporting System. DFAS Denver uses this system to prepare monthly trial
            balances and reports and year-end closing accounting entries for the Supply
            Management Activity Group and the JLSC.

                    Chief Financial Officers (CFO) Reporting System. The CFO
            Reporting System provides DFAS Denver with the capability to produce the
            financial statements for the Air Force WCF and ODO WCF. The CFO
            Reporting System is initially populated with accounting data from the Air Force
            Stock Fund Accounting System module and the Microsoft® Excel spreadsheets.
            DFAS Denver manually inputs additional accounting data. Outputs from the
            CFO Reporting System were initial inputs made to the DFAS Arlington3 DDRS
            for the final preparation of the FY 2000 Air Force WCF and ODO WCF
            financial statements.

                   Defense Departmental Reporting System. DFAS Arlington developed
            DDRS for use in preparing the FY 2000 financial statements for Air Force
            WCF, ODO WCF, and other DoD reporting entities. Outputs from the CFO
            Reporting System were used to populate DDRS. DFAS Denver entered
            additional accounting entries in DDRS in compiling the Air Force WCF and
            ODO WCF financial statements.

            We also examined the Microsoft® Excel spreadsheets used by DFAS Denver to
            prepare the monthly trial balances and reports and year-end closing entries for
            the USTRANSCOM, Depot Maintenance Activity Group, and DSS.

            Department-Level Accounting Entries. During FY 2000, DFAS Denver made
            814 department-level accounting entries for $127.7 billion4 that affected the
            year-end balances5 reported on the FY 2000 financial statements for those
            working capital funds. Those accounting entries were made monthly and at the
            end of the fiscal year.

Objective
            The original objective of the audit was to determine whether DFAS Denver
            consistently and accurately compiled financial data from field activities and
            other sources in compiling the FY 2000 financial statements for the working
            capital funds of the Air Force, USTRANSCOM, DSS, and JLSC. However,
            the objective was revised to determine whether the accounting entries made by
            DFAS Denver in preparing those FY 2000 financial statements were adequately
            supported and complied with generally accepted accounting principles (GAAP).

3
    DFAS Arlington is the nomenclature for Headquarters, DFAS.
4
    The dollar values of accounting entries are discussed in this report only in terms of their debit values.
5
    The totals exclude 298 accounting entries for $140.7 billion made by DFAS Denver during the first
    11 months of FY 2000, which had a net zero effect on the financial statements. Made to revalue
    Air Force WCF inventory at its approximate historical cost, those entries were subsequently reversed at
    the beginning of the next month. Only the year-end inventory revaluation entries are included in the
    report discussions because of their effect on the Air Force WCF financial statements.

                                                         2
We also reviewed applicable internal controls and compliance with laws and
regulations, including the management control program. See Appendix A for a
discussion of the audit scope and methodology, the management control
program, and prior coverage. See Appendix B for a discussion comparing the
audit results for FYs 1999 and 2000.




                                  3
           Accounting Entries
           DFAS Denver made 548 accounting entries for $105.0 billion in
           preparing the FY 2000 Air Force WCF financial statements. Of those
           accounting entries, 152 entries for $32.0 billion were unsupported while
           another 8 entries for $4.3 billion were improper. DFAS Denver also
           made 266 accounting entries for $22.7 billion in preparing the FY 2000
           financial statements for the working capital funds of the
           U.S. Transportation Command, Defense Security Service, and the Joint
           Logistics Systems Center. Of those accounting entries, 65 entries for
           $10.0 billion were unsupported. Unsupported and improper entries were
           made because the DoD Financial Management Regulation provided
           incomplete and improper accounting guidance. Further, DFAS Denver
           did not always follow DoD and DFAS guidance on journal vouchers.
           Although DFAS Denver has made progress in reducing the volume of
           and improving support for its accounting entries, the problem with
           unsupported and improper accounting entries remains. As a result,
           unsupported and improper accounting entries continue to affect the
           accuracy and reliability of the Air Force WCF and ODO WCF financial
           statements.

Guidance on Accounting Entries
    DoD Financial Management Regulation. DoD Regulation 7000.14-R “DoD
    Financial Management Regulation,” volume 6A, “Reporting Policy and
    Procedures,” January 2001 (as revised), provides guidance on the roles and
    responsibilities of DFAS and its customers regarding financial reports and the
    treatment of transactions from which the financial data included in the reports
    are derived. This guidance requires both DFAS and its customers to adequately
    support, and justify in writing, any adjustment to official accounting records and
    states that:
               The documentation shall include the rationale and justification for the
               adjustment, the detail numbers and dollar amounts of errors or
               conditions that are related to the transactions or records that are
               proposed for adjustment, the date of the adjustment, and the name and
               position of the individual approving the adjustment.               The
               documentation also shall be sufficient to provide an audit trail to the
               detail transaction(s) being adjusted or corrected.

    DFAS Guidance. DFAS Denver uses journal vouchers to document the nature
    of and approval for accounting entries made to data in the CFO Reporting
    System and DDRS. Automated controls in both systems are designed to prevent
    unapproved accounting entries from affecting the general ledger amounts
    included on the financial statements. While manually approved, journal
    vouchers are also used to document the accounting entries made in the Air Force
    Stock Fund Accounting System and in certain Microsoft® Excel spreadsheets.
    Accounting entries should be posted to the general ledger and affect the general
    ledger only after appropriate approval has been obtained.

                                             4
           On October 28, 1999, the Director for Accounting, DFAS Arlington, issued a
           memorandum, “Journal Voucher Guidance,” establishing specific guidance for
           documenting and approving accounting entries. On August 2, 2000, the
           Director for Accounting, DFAS Arlington, updated the guidance, which
           specifies documentation requirements for correcting source journal voucher
           entries. The memorandum also established thresholds for approval of journal
           vouchers.

           The DFAS guidance did not provide any performance standards or an action
           plan with metrics for measuring progress in implementing the journal voucher
           guidance. In addition, DFAS guidance allowed journal vouchers to be
           submitted and approved 5 workdays before all supporting documentation had
           been identified and made available to the approving official. No journal
           voucher should be submitted for approval until all supporting documentation is
           made available to the approving official. Appropriate changes to the DFAS
           guidance were recommended in the Inspector General, DoD, Report
           No. D-2001-107, “Accounting Entries Made by the Defense Finance and
           Accounting Service Omaha to U.S. Transportation Command Data Reported in
           DoD Agency-Wide Financial Statements,” May 2, 2001.

           Reporting Categories. Based on the DoD regulation and implementing DFAS
           guidance, we determined whether the accounting entries were supported,
           unsupported, improper, or not reviewed. Details are provided in Appendix B
           on the four reporting categories.

Comparison to FY 1999
           Unsupported and improper accounting entries made by DFAS Denver in
           compiling the FY 2000 Air Force WCF and ODO WCF financial statements
           continue to represent material control weaknesses. However, DFAS Denver
           made progress in significantly reducing the volume of accounting entries made
           during FY 2000 compared to FY 1999. For example, the $105.0 billion of
           accounting entries made in compiling the FY 2000 Air Force WCF financial
           statements were 42 percent6 less than those made in FY 1999. Similarly, DFAS
           Denver reduced by 79 percent6 the value of accounting entries made in
           compiling the FY 2000 ODO WCF financial statements. Unsupported
           accounting entries made in preparing the FY 2000 Air Force WCF and ODO
           WCF financial statements were reduced by 59 percent and 70 percent,6
           respectively. Improper accounting entries made in compiling the FY 2000 ODO
           WCF decreased to zero from $5.9 billion. However, the $4.3 billion in
           improper entries made in compiling the FY 2000 Air Force WCF financial
           statements represented a significant increase from the $0.2 billion made in
           FY 1999. Details on the comparison of FYs 1999 and 2000 audit results and
           explanations for the changes are provided in Appendix B.




6
    The percentages are calculated from the dollar values shown in Appendix B.

                                                     5
    Despite the improvements made by DFAS Denver in some areas, the magnitude
    of unsupported and improper accounting entries made in FY 2000 continues to
    be a material control weakness. Table 1 shows that additional corrective actions
    are required to improve the documentation of accounting entries and comply
    with generally accepted accounting principles.


                           Table 1. DFAS Denver FY 2000 Accounting Entries
                                         (dollars in billions)

     Reporting                 Air Force           Other Defense Organizations WCF
     Category                     WCF        USTRANSCOM         DSS        JLSC          Total

     Supported                     $68.7                $12.6        $0.1     $0.0*1     $12.7
     (entries)                    (388)                (174)        (25)       (2)      (201)

     Unsupported                    32.0                   9.3        0.6      0.1       10.0
     (entries)                    (152)                  (50)       (11)       (4)      (65)

     Improper                        4.3                   0.0        0.0      0.0         0.0
     (entries)                      (8)                   (0)        (0)       (0)        (0)

      Total                       $105.0                $21.9       $0.6**2   $0.2**2    $22.7
      (entries)                   (548)                (224)         (36)      (6)      (266)

     1
         The dollar values discussed in the report round to zero.
     2
         The column dollar value does not add up due to rounding.



Unsupported Entries
    As detailed in Table 2, in compiling the Air Force WCF financial statements,
    DFAS Denver made 152 accounting entries for $32.0 billion that were
    unsupported. For the ODO WCF financial statements, DFAS Denver made
    65 entries for $10.0 billion that were unsupported. Accounting entries were
    considered unsupported if the documentation for the entries was inadequate, the
    entries were made to force accounting data to match for elimination purposes, or
    the entries were made to force amounts into the accounting system. Entries
    were forced if they were made to make amounts agree or to distribute amounts
    based on an arbitrary process.




                                                  6
                        Table 2. Unsupported FY 2000 Accounting Entries
                                       (dollars in billions)

                               Air Force          Other Defense Organizations WCF
Reason Unsupported                WCF        USTRANSCOM         DSS        JLSC   Total

Forced Entries:
  Proprietary
  accounts                           $0.9          $0.2              $0.0      $0.0*     $0.2
  (entries)                         (17)           (3)              (0)        (1)       (4)
     Budgetary Accounts              22.5           5.0               0.4       0.1       5.5
     (entries)                      (21)           (5)              (1)        (1)       (7)

     Subtotal                        23.4           5.2               0.4       0.1       5.7
     (entries)                      (38)           (8)              (1)        (2)      (11)
Forced elimination
entries                               7.7           2.6               0.2       0.0*      2.8
(entries)                           (91)          (20)              (6)        (2)      (28)
Inadequate
documentation                         0.9           1.5               0.0*      0.0       1.5
(entries)                           (23)          (22)              (4)        (0)      (26)
     Total                          $32.0          $9.3              $0.6      $0.1     $10.0
     (entries)                     (152)          (50)             (11)        (4)      (65)

 *
     The dollar values discussed in the Finding section round to zero.



Forced Entries to Proprietary Accounts. DFAS Denver made these entries
when it identified abnormal balances in accounts, which could not be resolved
with their customers prior to the exchange of intra-DoD trading partner data.

       Guidance on Abnormal Balances. DoD Regulation 7000.14-R,
volume 6B, “Form and Content of DoD Audited Financial Statements,”
chapter 13, “FY 2000 Adjustments, Eliminations, and Other Special
Intragovernmental Reconciliation Procedures,” December 2000, requires DoD
accounting centers to eliminate abnormal balances in intra-DoD trading partner
data. Specifically, it states:
                 This review shall identify any abnormal balances such as negative
                 revenue.    The DoD accounting centers shall work with their
                 customers to resolve the abnormal balances and eliminate them before
                 exchanging intra-DoD trading partner data.

A negative revenue account or other abnormal balances represent account
balances that should not occur in applying generally accepted accounting
principles. Abnormal balances may exist in certain accounts before accounting
entries are made to eliminate transactions between intra-DoD trading partners.

                                              7
Those abnormal balances may be reflected in the trial balances provided to
DFAS Denver by field organizations and in other data used to prepare the
Air Force WCF and ODO WCF financial statements. Abnormal balances may
also be created when DFAS Denver makes accounting entries to allocate
undistributed collections to accounts receivable and undistributed disbursements
to accounts payable. As noted in DoD Regulation 7000.14-R, DoD systems
were designed and implemented before the requirement existed to eliminate
intragovernmental transactions. Deficiencies in the design of those DoD
systems often cause abnormal balances to occur.

DoD Regulation 7000.14-R clearly requires DoD accounting centers to work
with their customers in resolving abnormal balances. However, the regulation
does not clearly state that unresolved abnormal balances should be reported.
Instead, as discussed below, DFAS Arlington interpreted the guidance to mean
that unresolved abnormal balances should be arbitrarily eliminated before
exchanging intra-DoD trading partner data.

        Year-End Entries. DFAS Denver made 17 year-end accounting entries
for $878.6 million for the Air Force WCF, 3 year-end entries for
$186.0 million for USTRANSCOM, and 1 year-end entry for $40.0 million for
JLSC that eliminated abnormal balances. DFAS Denver made all these entries
to eliminate unresolved abnormal balances in response to directions from DFAS
Arlington. DFAS Arlington interpreted the DoD guidance on abnormal
balances to mean that such arbitrary entries should be made to eliminate
unresolved abnormal balances before exchanging intra-DoD trading partner
data. An example of this condition is accounting entry D20000053 that
arbitrarily accrued $8,119.86 to Accounts Receivable—Public (Account 1310)
and Revenue from Goods Sold—Public (Account 5100). This entry was made
to change the abnormal negative balance in Accounts Receivable—Public to a
zero balance. DFAS Arlington approved this accounting entry. This is an
unsupported accounting entry because an accounting event did not actually take
place for the accounting entry to document. To comply with GAAP, DFAS
Denver should not arbitrarily eliminate unresolved abnormal balances. The
DoD guidance should be revised to clearly state that unresolved abnormal
balances must be reported in accordance with GAAP.

Forced Entries to Budgetary Accounts. This condition exists when budgetary
accounts are populated from data in the Standard Form (SF) 133, “Report on
Budget Execution” rather than at the transaction level. Current accounting
systems for the Air Force, USTRANSCOM, JLSC, and DSS had not fully
implemented budgetary accounting and were being replaced or upgraded. As a
result, DFAS Denver had to use the SF 133 to make these entries to populate
the budgetary accounts for the preparation of the financial statements.

       Monthly Entry. DFAS Denver made one forced entry for $1.5 million
to budgetary accounts of the Air Force WCF. Supporting data showed that the
entry was required to correct the out-of-balance condition in an accounting
reconciliation made in previous years. We considered the entry to be the
incorporation of unsupported budgetary data into accounting records because
there was no indication of what part of the accounting reconciliation was out of

                                    8
balance, no discussion of what caused the out-of-balance condition, and no
indication of how the amount was determined. The forced entry, however, was
omitted from the account balance when calculating accounts receivable on the
year-end SF 133.

        Year-End Entries. In FY 2000, DFAS Denver made 20 year-end
accounting entries for $22.5 billion for the Air Force WCF and 7 year-end
accounting entries for $5.5 billion for the ODO WCF that were forced entries to
budgetary accounts. As noted above, DFAS Denver had to make these
27 unsupported year-end accounting entries because they do not use the
budgetary general ledger accounts at the transaction level. Inspector General,
DoD, Report No. D-2000-166, “Compilation of the FY 1999 Financial
Statements for Air Force and Other Defense Organizations Working Capital
Funds,” July 21, 2000, identified similar forced entries made in FY 1999.
DFAS has initiatives underway to upgrade or implement accounting systems that
will incorporate the full U.S. Standard General Ledger, including budgetary
accounts at the transaction level. As a result, we did not make a
recommendation regarding this condition.

Forced Elimination Entries. These elimination entries are made to comply
with DoD Regulation 7000.14-R, volume 6B, chapter 13. The regulation states
that for FY 2000 reporting, elimination entries and adjustments will be based on
the information supplied by the seller/service provider.
           The accounting centers then compare these balances to summary
           buyer-side data at the entity code trial balance level. Based on these
           comparisons, the amount of unrecorded intragovernmental
           transactions on the buyer-side can be calculated and the applicable
           accrual entries recorded.

The guidance does emphasize that the DoD accounting centers should ensure
that the seller-side information from trading partners is correct. However,
because of time constraints, the DoD accounting center is not required to
perform a detailed reconciliation to determine why the seller-side information is
correct and the buyer-side information is incorrect.

For example, if the intragovernmental trading partners of the Air Force WCF
notify the Air Force WCF that they sold it $10,000 worth of goods and services,
then the Air Force WCF will have to show $10,000 in the appropriate
intragovernmental expense account. If the Air Force WCF does not have
$10,000 in the account, then it must accrue the difference to build up to the
$10,000 in the account. DFAS Denver researches the difference, but if the
trading partner determines that its information is correct, then DFAS Denver
accrues the difference so that the accounting records agree with the trading
partners. Because of time constraints involved in the financial statement
preparation process, a detailed reconciliation is not performed to the sales ticket
or accounts receivable detail level. This type of accounting entry is unsupported
because no actual accounting event took place to support the adjustment and a
reconciliation was not performed where sales or accounts receivable documents
were compared to accounting records.

                                        9
DFAS Denver made 91 year-end accounting entries for $7.7 billion to the
Air Force WCF and 28 year-end entries for $2.8 billion to the ODO WCF to
force agreement between its buyer-side summary records and the seller-side
summary information received from other trading partners. The elimination
entry adjustments required of DoD entities by DoD Regulation 7000.14-R were
previously addressed in Inspector General, DoD, Report No. D-2001-042,
“Accounting and Disclosing Intragovernmental Transactions on the DoD
Agency-Wide Financial Statements,” January 31, 2001. The report
recommended that the Under Secretary of Defense (Comptroller) modify
DoD Regulation 7000.14-R to require reconciliations of differences between
buyer-side and seller-side information and disclosures of unreconciled
differences in the footnotes to the financial statements. The Under Secretary of
Defense (Comptroller) responded that, due to the large amount of
intragovernmental transactions and inadequate accounting systems, it is not
feasible to rely on after-the-fact reconciliations. The Under Secretary of
Defense (Comptroller) added that this limitation would be disclosed in a
footnote to the financial statements. Footnote 1.F. to the FY 2000 financial
statements of the Air Force WCF, USTRANSCOM, and DSS contains that
disclosure. However, the footnotes to those financial statements did not disclose
the dollar value of accruals made for unreconciled differences to force
agreement between the entity’s buyer-side summary records and the seller-side
summary information that it received from other trading partners. Disclosing the
magnitude of such unsupported accruals by U.S. Treasury index or trading
partner would give users of DoD financial statements a basis for evaluating the
materiality of this weakness in the entity’s intragovernmental elimination
process.

Inadequate Documentation. DoD Regulation 7000.14-R, volume 6A, requires
customers of DFAS to fully support the amount and purpose of accounting
entries. DFAS Denver did not provide full supporting documentation for some
of its accounting entries.

        Monthly Accounting Entries. Supporting documentation for
nine Air Force WCF monthly accounting entries for $171.4 million was
incomplete or did not support the entry. In addition, supporting documentation
for nine monthly USTRANSCOM accounting entries for $1.5 billion was
incomplete or did not support the entry.

        Year-End Accounting Entries. DFAS Denver made 14 year-end
unsupported accounting entries for $699.9 million to the Air Force WCF. In
addition, DFAS Denver made 17 year-end accounting entries with incomplete
documentation for $52.6 million to the ODO WCF. Those 31 accounting
entries initially did not have adequate documentation to support either the
purpose or the amount. For three Air Force WCF and five ODO WCF
accounting entries, DFAS Denver disagreed with the recommended accounting
treatment of the reconciliation between DoD and the Office of Personnel
Management related to the FY 1999 employer share of employee benefits.
DFAS Denver stated that the field activities had already made the entries, but
could not furnish confirmation either that the field activities were notified of the


                                     10
    reconciliation amount or that the field activities had actually made the
    accounting entry.

Improper Accounting Entries
    DFAS Denver made eight improper accounting entries for $4.3 billion that were
    contrary to GAAP. Of the $4.3 billion, $4.1 billion related to two monthly
    entries that incorrectly calculated the excess, obsolete, and beyond repair
    inventory; and related inventory losses or adjustments. The remaining
    six entries for $0.2 billion related to returns to vendors pending credit and
    mismatched accounting periods.

    Inventory—Excess, Obsolete, and Beyond Repair and Inventory Losses or
    Adjustments. DFAS Denver made two monthly entries for $4.1 billion that did
    not comply with GAAP in the amounts reported on the Air Force WCF financial
    statements for two accounts: Inventory—Excess, Obsolete, and Beyond Repair
    (Account 1524) and Inventory Losses or Adjustments (Account 7291).

            Inventory—Excess, Obsolete, and Beyond Repair. In making the
    two entries, DFAS Denver overstated by $45.3 million the Inventory—Excess,
    Obsolete, and Beyond Repair account. The inventory was overstated because
    DFAS Denver personnel used an incorrect salvage value of 2.9 percent of the
    inventory’s latest acquisition cost. In calculating the inventory amount, DFAS
    Denver should have used the 1.8-percent rate established by the Director for
    Accounting, DFAS Arlington, on September 28, 2000. The error occurred for
    two reasons. First, because of inadequate training, a DFAS Denver employee
    did not properly update the electronic worksheet used to calculate the inventory
    amount for the reduced salvage rate. Additional on-the-job training was
    provided to that employee during the audit. Second, when the error was
    detected, DFAS Denver personnel were not able to make the necessary
    correction in the time available because of their unfamiliarity with the new
    DDRS. Additional DDRS training should be provided to those DFAS Denver
    personnel.

            Inventory Losses or Adjustments. In making the same two entries,
    inventory losses or adjustments applicable to the excess, obsolete, and beyond
    repair inventory were overstated by an additional $9.7 million on the financial
    statements. This overstatement occurred because DFAS Denver personnel
    relied on an Air Force WCF inventory model from the Under Secretary of
    Defense (Comptroller) that incorrectly calculated realized holding gains that
    were related to the inventory identified as excess, obsolete, or beyond repair.
    The Air Force WCF inventory model multiplied the ratio of the holding gains
    allowance to the total inventory available by the value at latest acquisition cost
    of the inventory identified as excess, obsolete, and beyond repair less its salvage
    value. DoD Regulation 7000.14-R, volume 11B, “Reimbursable Operations
    Policy and Procedures-Working Capital Funds,” December 1994, shows that the
    salvage value should not be subtracted in the calculation. The Air Force WCF
    inventory model should be revised to correctly calculate inventory holding gains
    and losses.

                                        11
           Return to Vendors Pending Credit. DFAS Denver made four year-end entries
           to the Air Force WCF for $146.6 million that were contrary to GAAP for
           accounting for returns to vendors pending credit. The entries made by DFAS
           Denver incorrectly recorded returns to vendors pending credit as an Other
           Assets—Government, Entity (Account 1990). Instead, DFAS Denver should
           have recorded it as an Accounts Receivable—Government, Entity (Account
           1311) since the returned items were no longer held in inventory. The receivable
           should only be liquidated when the credit is received from the vendor. Only at
           that time, should the difference between the book value of the item and the
           actual refund be recorded as a loss.

           A similar issue at DFAS Cleveland was reported in Inspector General, DoD,
           Report No. D-2000-140, “Compilation of the FY 1999 Department of the Navy
           Working Capital Fund Financial Statements,” June 7, 2000. The report stated
           that DFAS Cleveland did not properly record returned items as Property
           Returned to Government (Suppliers) for Credit (Accounts 15901 and 159027).
           Instead, DFAS Cleveland left the returned items in Inventory Held for Sale;
           whereas, DFAS Denver removed similar returned items from that inventory
           account and recorded them as Other Assets. This inconsistency and resultant
           noncompliance with GAAP resulted from the lack of guidance on the proper
           accounting treatment in DoD Regulation 7000.14-R, volume 4, “Accounting
           Policy and Procedures,” January 2001; and volume 11B, “Reimbursable
           Operations Policy and Procedures Working Capital Funds,” December 1994.
           That is, the regulation did not specify the accounting treatment for returned
           items pending credit from commercial vendors or other Government entities.

           Accounting Period. Two monthly entries for $2.6 million did not comply with
           GAAP requirements that transactions be recorded in the accounting period in
           which they occurred. One entry recorded the FY 1999 collections of
           $1.1 million as if made in FY 2000. This entry reversed an FY 1999 entry that
           had improperly reversed a previous FY 1999 entry. The previous FY 1999
           entry reduced accounts receivable and undistributed collections for collections
           related to the sale of fuel to foreign governments. During July 2000, we
           informed DFAS Denver that the FY 1999 reversal entry was contrary to GAAP
           by improperly reducing accounts receivable and undistributed collections, and
           that the FY 2000 reversal entry violated GAAP by moving FY 1999
           undistributed collections to FY 2000. A second entry made in September 2000
           processed another improper entry for $1.5 million in September 2000 that
           reversed a previous FY 2000 entry. The previous FY 2000 entry had reduced
           accounts receivable and undistributed collections for collections related to the
           sale of fuel to foreign governments. The previous entry properly assigned the
           collection to a specific receivable and was supported by collection vouchers
           processed by the disbursing officer, DFAS Denver.

           Documentation for the improper FY 1999 and FY 2000 entries that increased
           receivables and undistributed collections stated that the improper entries were
           made because the information related to the collections had not been received
           from the automated By-Others disbursing system. However, documentation for

7
    Navy Industrial Fund Chart of Accounts.

                                              12
   the transactions showed that the initial FY 1999 and FY 2000 collection entries
   properly reduced accounts receivable and undistributed collections in accordance
   with GAAP.

Summary
   DFAS Denver made progress in the preparation and support of FY 2000
   accounting entries. However, additional improvements are needed.

   Of the $32.0 billion in unsupported accounting entries made to the Air Force
   WCF accounting records,

          •   $31.1 billion resulted from systems limitations or inadequate
              guidance from the Under Secretary of Defense (Comptroller) and
              DFAS Arlington, and

          •   $871.4 million in unsupported accounting entries resulted from
              DFAS Denver not fully implementing guidance in DoD Regulation
              7000.14-R and internal guidance.

   Of the $4.3 billion in improper accounting entries made to Air Force WCF
   accounting records,

          •   $4.3 billion resulted from inadequate guidance from the Under
              Secretary of Defense (Comptroller) and DFAS Arlington, and

          •   $2.6 million resulted from DFAS Denver not fully implementing
              guidance in DoD Regulation 7000.14-R and internal guidance.

   Of the $10 billion in unsupported accounting entries made to the accounting
   records of the USTRANSCOM, DSS, and JLSC,

          •   $8.4 billion resulted from systems limitations or inadequate guidance
              from the Under Secretary of Defense (Comptroller) and DFAS
              Arlington, and

          •   $1.6 billion resulted from DFAS Denver not fully implementing
              guidance in DoD Regulation 7000.14-R and internal guidance.




                                      13
Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Under Secretary of Defense (Comptroller):

            a. Revise DoD Regulation 7000.14, volume 6B, chapter 13, to clearly
    state that unresolved abnormal balances must be reported in the financial
    accounting records and reports in accordance with generally accepted
    accounting principles.

           b. Revise DoD Regulation 7000.14, volume 6B, chapter 10, to
    provide in Footnote 1.F. to the Principal Financial Statements the dollar
    value of accruals made for unreconciled differences to force agreement
    between the entity’s buyer-side summary records and the seller-side
    summary information provided by its trading partners. Such accruals
    should be identified in the footnote by U.S. Treasury index or trading
    partner.

           c. Correct the Air Force Working Capital fund inventory model to
    agree with DoD Regulation 7000.14-R, volume 11B, for the calculation of
    realized holding gains/losses related to inventory identified as potentially
    excess, obsolete, and beyond repair.

           d. Revise DoD Regulation 7000.14, volumes 4 and 11B, to specify
    that an accounts receivable be recorded when inventory items are returned
    for credit to other Government entities and commercial vendors.

    Management Comments Required. The Under Secretary of Defense
    (Comptroller) did not comment on Recommendations 1.a., 1.b., 1.c., and 1.d.
    We request that the Under Secretary of Defense (Comptroller) provide
    comments in response to the final report.

    2. We recommend that the Director, Defense Finance and Accounting
    Service Denver:

            a. Record the liquidation of accounts receivable related to the sale of
    fuel to foreign governments in the accounting period in which the collection
    is received.

    Management Comments. DFAS concurred and stated that a new system to be
    implemented in July 2001 will record in the correct accounting period the
    liquidation of accounts receivable related to the sale of fuel to foreign
    governments.




                                      14
       b. Provide supporting data for FY 2001 and future accounting
entries in accordance with DoD Regulation 7000.14-R and implementing
internal guidance.

Management Comments. DFAS concurred in principle and stated that the
unsupported and improper accounting entries, which were made to increase the
accuracy of the statements, are due to non-CFO compliant feeder systems.
DFAS added that the General Accounting and Finance System-Rehost, which is
scheduled for October 2002 implementation, will remedy the confusion over
unsupported adjusting entries.

Audit Response. DFAS comments were nonresponsive because they are
incomplete. As management stated, many of the unsupported entries were
caused by accounting system deficiencies in the feeder systems used. However,
this audit report also identified accounting entries classified as inadequately
documented. Those inadequately documented entries resulted from failure to
comply with DFAS journal voucher guidance, not accounting system
deficiencies. Those inadequately documented accounting entries were valued at
$0.9 billion for the Air Force WCF and $1.5 billion for the ODO WCF.
Management’s comments did not address the corrective actions taken or planned
to ensure that all future accounting entries will be adequately documented. In
addition, the General Accounting and Finance System-Rehost now under
development will have no impact on working capital funds because it will only
be used for general funds. We request that DFAS reconsider its position on the
recommendation and provide additional comments.

      c. Provide additional training to users of the Defense Departmental
Reporting System.

Management Comments. DFAS concurred and stated that additional training
on DDRS will be provided to users during October 2001.




                                  15
Appendix A. Audit Process

Scope
    Work Performed. We reviewed the documentation supporting the accounting
    entries that DFAS Denver made to FY 2000 accounting records of the
    Air Force, USTRANSCOM, DSS, and JLSC working capital funds.
    Accounting entries made by DFAS Denver included 814 accounting entries for
    $127.7 billion. In addition, DFAS Denver made 298 accounting entries for
    $140.7 million during the first 11 months of FY 2000 that had a net zero effect
    on the Air Force WCF financial statements.

    Limitation to Audit Scope. DFAS Denver may have made accounting entries
    in the Merged Accountability and Fund Reporting System or other department-
    level automated information systems that were not included in the scope of this
    audit, which was limited to department-level accounting entries made in the:

           •   Air Force Stock Fund Accounting System,

           •   CFO Reporting System, and

           •   DDRS.

    The audit also examined Microsoft® Excel spreadsheets used to prepare monthly
    trial balances, reports, and year-end closing entries for the USTRANSCOM,
    Depot Maintenance Activity Group, and DSS.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following corporate-level goal, subordinate performance
    goal, and performance measures.

           •   FY 2001 DoD Corporate-Level Goal 2: Prepare now for an
               uncertain future by pursuing a focused modernization effort that
               maintains U.S. qualitative superiority in key warfighting capabilities.
               Transform the force by exploiting the Revolution in Military Affairs,
               and reengineer the Department to achieve a 21st century
               infrastructure. (01-DoD-02)

           •   FY 2001 Subordinate Performance Goal 2.5: Improve DoD
               financial and information management. (01-DoD-2.5)

           •   FY 2001 Performance Measure 2.5.1: Reduce the number of
               noncompliant accounting and finance systems. (01-DoD-2.5.1.)



                                        16
           •   FY 2001 Performance Measure 2.5.2: Achieve unqualified
               opinions on financial statements. (01-DoD-2.5.2.)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objective and
    goal.

           • Financial Management Area. Objective: Strengthen internal
             controls. Goal: Improve compliance with the Federal Managers’
             Financial Integrity Act. (FM 5.3)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Financial Management high-risk area.

Methodology
    Use of Computer-Processed Data. We relied on computer-processed data
    from the Air Force Stock Fund Accounting System module of the Departmental
    On-Line Accounting and Reporting System, the Chief Financial Officer
    Reporting System, DDRS, and certain Microsoft® Excel spreadsheets. We did
    not evaluate the general and application controls of these systems because the
    process for preparing and approving accounting entries at DFAS Denver is
    primarily a manual process. Not evaluating the controls did not affect the
    results of the audit since we reviewed all accounting entries.

    Audit Type, Dates, and Standards. We performed this financial-related audit
    from June 2000 through March 2001 in accordance with auditing standards that
    the Comptroller General of the United States issued, as implemented by the
    Inspector General, DoD. We performed our work in accordance with generally
    accepted Government auditing standards except we were unable to obtain an
    opinion on our system of quality control. The most recent external quality
    control review was withdrawn on March 15, 2001, and we will undergo a new
    review. We included tests of management controls considered necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DoD. Further details are available on request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provide reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.


                                       17
    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of DFAS Denver’s management controls over the approval,
    accounting, and support for department-level accounting entries. We also
    reviewed management’s self-evaluation applicable to those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses as defined in DoD Instruction 5010.40. Management
    controls at DFAS Denver were not adequate to ensure that all accounting entries
    were proper or adequately supported. We reported similar management control
    weaknesses in Inspector General, DoD, Report No. D-2000-166. If
    implemented, Recommendations 1.a., 1.b., 1.c., and 1.d., and 2.a., 2.b., and
    2.c. will improve the controls over the process for making accounting entries.
    We will provide a copy of the report to the senior official in charge of
    management controls at DFAS Denver.
    Adequacy of Management’s Self-Evaluation. DFAS Denver identified
    controls over the preparation of financial statements as an assessable unit but did
    not identify controls over accounting entries as an assessable unit. DFAS
    Denver evaluated the preparation of financial statements and controls over
    accounting entries. In its evaluations, DFAS Denver did not identify material
    weaknesses related to controls over accounting entries identified by this audit
    because their review was not sufficiently detailed to identify those weaknesses.
    In its Annual Statement of Assurance, DFAS reported a material weakness
    related to not implementing the U.S. Standard General Ledger at the transaction
    level.

Prior Coverage
    The General Accounting Office and the Inspector General, DoD, have
    conducted multiple reviews related to financial statement issues. General
    Accounting Office reports can be accessed on the Internet at
    http://www.gao.gov. Inspector General, DoD reports can be accessed on the
    Internet at http://www.dodig.osd.mil/audit/reports.




                                        18
Appendix B. Comparison of FYs 1999 and 2000
            Audit Results

Reporting Categories
    Accounting entries made by DFAS Denver were categorized as supported,
    unsupported, improper, or not reviewed. In the FY 1999 audit, improper
    entries were included in the unsupported entries.

           Supported Entries. Except for entries considered unsupported or
    improper, supported accounting entries are original data entries made in the
    accounting records for:

                • data submitted by authorized organizations, other data
                  originating within DFAS systems, and data calls made by DFAS
                  sites to obtain data not otherwise available;

                • inventory revaluation and other entries required by DoD
                  Regulation 7000.14-R or other published requirements; and

                • year-end closing entries, reversals of required entries and closing
                  entries, and corrections of errors.

           Unsupported Entries. Accounting entries are unsupported when the
    documentary support or audit trails are inadequate at the time such entries were
    submitted for approval (or absent required approval, when the entries were
    made). Thus, to emphasize the underlying documentation control weaknesses,
    accounting entries are still identified in this report as unsupported in those
    instances where DFAS Denver subsequently provided additional documentary
    support and explanations of audit trails. Unsupported entries represent:

                • elimination entries and other entries made to force agreement
                  between accounting records because of accounting system
                  deficiencies or other problems,

                • entries made where no documentary support was available or
                  where the documentation provided did not support the dollar
                  amount or inadequately described the purpose and reason for
                  making the entry, and

                • entries made where the audit trails to supporting documentation
                  were inadequate.

            Improper Entries. Improper accounting entries represent those that are
    either illogical or contrary to generally accepted accounting principles.

           Not Reviewed. These accounting entries were identified by the audit but
    not reviewed because of time limitations for conducting the audit.
                                       19
Comparison to Prior Year
            We reviewed and reported on the FY 1999 accounting entries made by DFAS
            Denver to the accounting records of the Air Force WCF and ODO WCF in
            Inspector General, DoD, Report No. D-2000-166. Tables B-1 and B-2 compare
            the results of the audits of accounting entries made in compiling the FYs 1999
            and 2000 Air Force WCF and ODO WCF financial statements, respectively.

            Though material control weaknesses remain, as noted in the Finding section of
            this report and in Tables B-1 and B-2, DFAS Denver did make significant
            progress in reducing the volume of and improving the support for accounting
            entries made in compiling the FY 2000 Air Force WCF and ODO WCF
            financial statements. For example, during the first 11 months of FY 2000,
            DFAS Denver made 18 inventory revaluation entries for $32.5 million that
            incorrectly posted realized holding losses related to inventory period expenses as
            if they were holding gains.* These incorrect entries understated actual period
            expenses and misstated the Accounting Report (M) 1307, “Defense Working
            Capital Fund Accounting Report,” and SF 133 reports issued during the first
            11 months of FY 2000. After being alerted to those incorrect postings, DFAS
            Denver corrected its posting procedures and correctly posted year-end realized
            holding losses related to period expenses for Air Force WCF financial
            statements and managerial financial reports issued for September 30, 2000.

            The differences between FY 1999 and FY 2000 occurred primarily because of
            the following factors.

                   •    In FY 1999, because of a change in procedure, DFAS Denver had to
                        load FY 1997 and 1998 budgetary information into the computer
                        system used to prepare the FY 1999 Air Force WCF financial
                        statements so that budgetary information could be calculated. Such
                        entries were not required in FY 2000.

                   •    In FY 1999, the decision to move USTRANSCOM from the
                        Air Force WCF to the ODO WCF for financial statement purposes
                        came after preparation of the FY 1999 financial statements had
                        already started. As a result, DFAS Denver had to prepare accounting
                        entries in FY 1999 to reverse the USTRANSCOM balances out of the
                        Air Force WCF financial statements and into the ODO WCF financial
                        statements. Such entries were not required in FY 2000.




*
    The 18 inventory revaluation entries are not included in the unsupported or improper accounting entries
    discussed in this report. Those entries had a net zero effect on the FY 2000 Air Force WCF and ODO
    WCF financial statements because they were reversed at the beginning of the next month.
                                                      20
    •    In FY 1999, 30 accounting entries made in preparing the Air Force
         WCF and ODO WCF financial statements were unsupported because
         they had inadequate audit trails. An accounting entry has inadequate
         documentation if documentation is present that may support the
         amount or the purpose for the accounting entry, but the auditor is
         unable to follow the chain of documentation. In FY 2000, DFAS
         Denver provided adequate audit trails for all of the accounting entries
         made, though some entries were identified as unsupported for other
         reasons.

    •    In FY 2000, DFAS Denver researched the difference between
         different data sources and showed why the accounting records needed
         to be adjusted. Where the accounting entries forced balances, DFAS
         Denver was following Under Secretary of Defense (Comptroller) or
         DFAS Arlington requirements.

    •    DFAS Denver prepared seven times the number of accounting entries
         for the DSS in FY 2000 as in FY 1999 because DFAS Denver started
         entering departmental accounting data for the DSS in mid-FY 1999.
         As a result, FY 2000 was the first full year DFAS Denver provided
         this service.



         Table B-1. FYs 1999 and 2000 Audits of Accounting Entries Made in
                 Compiling the Air Force WCF Financial Statements


                                              Number of
Reporting Category*                        Accounting Entries    Amount (in billions)

                                           FY 1999   FY 2000      FY 1999     FY 2000

Supported                                      293        388       $ 90.5      $ 68.7
Unsupported                                    242        152         78.9        32.0
Improper                                         3          8          0.2         4.3
Not reviewed                                    32          0         11.2         0.0
 Total                                         570        548       $180.8      $105.0
*
 For comparison purposes, unsupported FY 1999 accounting entries that were illogical or
 contrary to GAAP are restated as “improper” to reflect FY 2000 reporting categories.




                                      21
           Table B-2. FYs 1999 and 2000 Audits of Accounting Entries Made in
                     Compiling the ODO WCF Financial Statements


                                                    Number of
Reporting Category1                              Accounting Entries     Amount (in billions)

                                              FY 1999      FY 2000       FY 1999     FY 2000

DoD Agency-Wide Other Defense
Organizations—WCFs:
    USTRANSCOM:
      Supported                                      61         174       $ 63.2        $ 12.6
      Unsupported                                   105          50         31.2           9.3
      Improper                                        5           0          5.9           0.0
      Not reviewed                                    4           0          4.7           0.0
       Subtotal                                     175         224        $105.0       $ 21.9
    DSS:
      Supported                                        1         25        $ 0.02       $ 0.1
      Unsupported                                      4         11          0.3          0.6
      Improper                                         0          0          0.0          0.0
      Not reviewed                                     0          0          0.0          0.0
       Subtotal                                        5         36        $ 0.3        $ 0.63
    JLSC:
      Supported                                      15           2        $ 2.5        $ 0.02
      Unsupported                                     5           4          1.5           0.1
      Improper                                        0           0          0.0           0.0
      Not reviewed                                    0           0          0.0           0.0
       Subtotal                                      20           6        $ 4.0        $ 0.23
    Total:
      Supported                                      77         201        $ 65.7       $ 12.7
      Unsupported                                   114          65          33.0         10.0
      Improper                                        5           0           5.9          0.0
      Not reviewed                                    4           0           4.7          0.0
       Total                                        200         266        $109.3       $ 22.7

1
    For comparison purposes, unsupported FY 1999 accounting entries that were illogical or
    contrary to GAAP are restated as “improper” to reflect FY 2000 reporting categories.
2
    The dollar values discussed in the Finding section of the prior report round to zero.
3
    Dollar values in entity column do not add up due to rounding.




                                            22
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Commander, Air Force Materiel Command
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Unified Commands
Commander in Chief, U.S. Transportation Command

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Denver

Non-Defense Federal Organization
Office of Management and Budget




                                           23
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         24
Defense Finance and Accounting
Service Comments




               25
26
27
Audit Team Members
The Finance and Accounting Directorate, Office of the
Assistant Inspector General for Auditing, DoD, produced
this report. Personnel of the Office of the Inspector
General, DoD, who contributed to the report are listed
below.


Paul J. Granetto
Richard B. Bird
Brian M. Flynn
W. Andy Cooley
Andrew E. Hornbrook
L. Sue Hoogland
Frederick S. Manly
Monica L. Noell
Lisa C. Rose-Pressley
